GR-50-98-035
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Grants to Encourage Arrest Policies
Administered by the Dayton Police Department
Dayton, Ohio


Grant No. 97-WE-VX-0070
 


Audit Report No. GR-50-98-035
 
September 24, 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
Grant to Encourage Arrest Policies, awarded by the U.S. Department of Justice, Office of
Justice Programs, Grant Number 97-WE-VX-0070, administered by the Dayton Police
Department, Dayton, Ohio (Dayton PD). The grant was awarded in the amount of $720,881
through the Violence Against Women Grants Office, for the period of March 1, 1997
through August 31, 1998. The purpose of the grant was to encourage jurisdictions to
implement mandatory or pro-arrest policies as an effective intervention that is part of a
coordinated community response to domestic violence.

In brief, our audit revealed:



Financial Status and Progress Reports were not submitted timely and the Financial Status
      Reports were incomplete.


The details of our audit are contained in the Findings and Recommendations section of
this report. Our audit scope, and methodology are described in Appendix II.
#####